<html>
<title> - APPORTIONMENT IN THE BALANCE: A LOOK INTO THE PROGRESS OF THE 2010 DECENNIAL CENSUS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  APPORTIONMENT IN THE BALANCE: A LOOK INTO THE PROGRESS OF THE 2010 
                            DECENNIAL CENSUS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON FEDERALISM
                             AND THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 1, 2006

                               __________

                           Serial No. 109-131

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-016                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Federalism and the Census

                   MICHAEL R. TURNER, Ohio, Chairman
CHARLES W. DENT, Pennsylvania        WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       PAUL E. KANJORSKI, Pennsylvania
VIRGINIA FOXX, North Carolina        CAROLYN B. MALONEY, New York
------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     John Cuaderes, Staff Director
            Ursula Wojciechowski, Professional Staff Member
                         Juliana French, Clerk
          Mark Stephenson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2006....................................     1
Statement of:
    Kincannon, Charles Louis, Director, U.S. Census Bureau; 
      Brenda S. Farrell, Acting Director, Strategic Issues, U.S. 
      Government Accountability Office; and David A. Powner, 
      Director, Information Technology Management Issues, U.S. 
      Government Accountability Office...........................     8
        Farrell, Brenda S........................................    14
        Kincannon, Charles Louis.................................     8
        Powner, David A..........................................    37
    Rector, Ralph, Ph.D., senior research fellow and project 
      manager, Center for Data Analysis, the Heritage Foundation; 
      Andrew Reamer, Ph.D., deputy director, Urban Markets 
      Initiative, the Brookings Institution; and Margo Anderson, 
      professor, history and urban studies, University of 
      Wisconsin-Milwaukee........................................   126
        Anderson, Margo..........................................   155
        Reamer, Andrew, Ph.D.....................................   135
        Rector, Ralph, Ph.D......................................   126
Letters, statements, etc., submitted for the record by:
    Anderson, Margo, professor, history and urban studies, 
      University of Wisconsin-Milwaukee, prepared statement of...   157
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     6
    Farrell, Brenda S., Acting Director, Strategic Issues, U.S. 
      Government Accountability Office, prepared statement of....    16
    Kincannon, Charles Louis, Director, U.S. Census Bureau, 
      prepared statement of......................................    10
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............   115
    Powner, David A., Director, Information Technology Management 
      Issues, U.S. Government Accountability Office, prepared 
      statement of...............................................    39
    Reamer, Andrew, Ph.D., deputy director, Urban Markets 
      Initiative, the Brookings Institution, prepared statement 
      of.........................................................   137
    Rector, Ralph, Ph.D., senior research fellow and project 
      manager, Center for Data Analysis, the Heritage Foundation, 
      prepared statement of......................................   128
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     3


  APPORTIONMENT IN THE BALANCE: A LOOK INTO THE PROGRESS OF THE 2010 
                            DECENNIAL CENSUS

                              ----------                              


                        WEDNESDAY, MARCH 1, 2006

                  House of Representatives,
         Subcommittee on Federalism and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 2154, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Present: Representatives Turner, Foxx, Clay and Maloney.
    Staff present: John Cuaderes, staff director; Ursula 
Wojciechowski, professional staff member; Juliana French; 
clerk; Adam Bordes and Mark Stephenson, minority professional 
staff members; and Jean Gosa, minority assistant clerk.
    Mr. Turner. A quorum being present, this hearing of the 
Subcommittee on federalism and the Census will come to order.
    Welcome to the subcommittee's oversight hearing entitled, 
``Apportionment in the Balance: A Look into the Progress of the 
2010 Decennial Census.'' Today we will consider the status of 
the Census Bureau's preparations for the 2010 decennial census.
    This hearing is a followup to our April 19, 2005, hearing 
last year entitled, ``Halfway to the 2010 Census: The Countdown 
and Components to a Successful Decennial Census.'' Since then 
the Census Bureau has achieved and is nearing completion of 
several key milestones. The Bureau has successfully carried out 
the American Community Survey for 1 full year. Additionally, 
the MAF/TIGER Enhancement Program is nearing what we all hope 
will be a successful completion.
    As the Bureau continues its preparation for a short form 
only census, it is undertaking two major contracts: the Field 
Data Collection Automation program and the Decennial Response 
Integration System. These two technology contracts have a 
combined value of over $1 billion. These major contracts signal 
the first real ``hi-tech'' census, and the subcommittee will 
examine how the successful implementation of these contracts is 
critical to the 2010 decennial census.
    Furthermore, the subcommittee will explore several other 
issues such as the Local Update of Census Addresses [LUCA], 
program and the intergovernmental partnerships required to 
facilitate the program. There are a number of important issues 
that can impact the successful implementation of the census, 
including personnel and infrastructure matters, hiring and 
training temporary workers, and establishing temporary field 
offices.
    Testing for the 2010 decennial census is already underway. 
The Bureau is testing policy and technology concepts in Travis 
County, TX, and the Cheyenne River Reservation in South Dakota. 
Canvassing in Texas was to be completed in 6 weeks, and the 
subcommittee understands that this goal was not met. In today's 
hearing, we will examine this issue, as well as the issue of 
using handheld technology in the testing environment. It is our 
understanding that the handhelds failed to perform adequately 
and the activity was concluded without finishing the address 
file that is needed for the next test phase.
    These issues must be resolved before the 2008 dress 
rehearsal. I am eager to hear what the Census Bureau is doing 
to address the problems of their tests and other issues related 
to the 2010 decennial census.
    On our first panel, we welcome remarks from the Honorable 
Charles Louis Kincannon, director of the Census Bureau. Then we 
will hear from Ms. Brenda Farrell, Acting Director of Strategic 
Issues, and Mr. David Powner, Director of Information 
Technology Management Issues, both from the Government 
Accountability Office, regarding their assessment of the 
Bureau's planning for the decennial census.
    On our second panel, we will hear from Dr. Ralph Rector 
from the Heritage Foundation, Dr. Andrew Reamer from the 
Brookings Institution, and last, we will hear from Dr. Margo 
Anderson, professor of history and urban studies at the 
University of Wisconsin-Milwaukee.
    [The prepared statement of Hon. Michael R. Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.001
    
    [GRAPHIC] [TIFF OMITTED] T7016.002
    
    Mr. Turner. With that, my colleagues on the subcommittee 
and I welcome you and look forward to your testimony, and I now 
yield to the gentleman from Missouri, the distinguished Member 
Mr. Clay, for any opening remarks that he may have.
    Mr. Clay. Good morning, and thank you, Mr. Chairman, for 
calling today's hearing to review the Census Bureau's efforts 
for carrying out the 2010 decennial census. I welcome our 
witnesses, especially Director Kincannon of the Census Bureau.
    I would like to begin by expressing my unwavering support 
for the American Community Survey and its goals of delivering 
more timely and effective data to the Bureau. As the ranking 
member of this subcommittee, I am pleased to have been a part 
of the efforts to bring the ACS into reality. The Census Bureau 
is now collecting data in every county in the United States, 
and this effort will make the 2010 census less complex and more 
efficient.
    Information from the decennial census provides an important 
benchmark for the formulas governing many of our domestic 
programs, thus helping us serve the needs of our citizens. The 
Bureau continues to face pressing challenges, however, as 
preparations for the 2010 decennial census begin in earnest. 
First, it remains unclear if their acquisitions for new IT 
infrastructure will be tested and ready for the 2008 rehearsal 
of 2010 census. It will be difficult to ensure an accurate 
census if we cannot rely on the new technologies being 
implemented to aid in agency efforts.
    Furthermore, it remains unclear to me if past problems 
concerning the undercounting of minority populations or the 
accuracy of the Master Address File have been remedied. With 
only 4 years left until field work begins, plans and mitigation 
strategies must be established to ensure the most accurate and 
reliable census possible.
    Once again, I look forward to learning more today about the 
plans for the 2010 census and how we in Congress can be of 
assistance to the Bureau.
    This concludes my statement, Mr. Chairman, and I yield 
back.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.003
    
    [GRAPHIC] [TIFF OMITTED] T7016.004
    
    Mr. Turner. Thank you, Mr. Clay. I appreciate your interest 
and your professionalism on the committee and your work with 
the issues of the census.
    We will now start with the witnesses. Each witness has 
kindly prepared written testimony, which will be included in 
the record of this hearing. Witnesses will notice there is a 
timer with a light on at the witness table. The green light 
indicates that you should begin your prepared remarks, and the 
red light indicates that time has expired.
    It is the policy of this committee that all witnesses be 
sworn in before they testify. If you would please rise and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Please let the record show that all the 
witnesses have responded in the affirmative, and we will begin 
with Mr. Kincannon.

 STATEMENTS OF CHARLES LOUIS KINCANNON, DIRECTOR, U.S. CENSUS 
 BUREAU; BRENDA S. FARRELL, ACTING DIRECTOR, STRATEGIC ISSUES, 
  U.S. GOVERNMENT ACCOUNTABILITY OFFICE; AND DAVID A. POWNER, 
   DIRECTOR, INFORMATION TECHNOLOGY MANAGEMENT ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

              STATEMENT OF CHARLES LOUIS KINCANNON

    Mr. Kincannon. Thank you, Mr. Chairman. Good morning, and 
on behalf of the Census Bureau, I want to thank you and the 
ranking minority member and the whole committee for inviting me 
to testify. Today we are 4 years and 1 month from census day.
    The success of the decennial census is the Census Bureau's 
largest and most important priority. It represents 60 percent 
of the President's 2007 budget request for the Census Bureau. 
The budget for the decennial census program covers the American 
Community Survey [ACS]; the MAF/TIGER enhancement; and the 2010 
census activities themselves. Because of strong congressional 
support, the American Community Survey is on track and moving 
toward its goals.
    We will release the first annual estimates from the full 
ACS this August for approximately 8,000 communities with 
populations of 65,000 or more and, for the first time, data for 
every congressional district in the country. In 2008, we will 
release data for communities of 20,000 or more, and in 2010, 
data for every census tract--2 years before equivalent data 
would be available from a traditional census long form.
    The ACS is crucial to the overall success of the decennial 
census because it replaces the long form and allows us to focus 
our attention on a complete count of the American population.
    Another critical component of the success of the 2010 
census is the address list and map. The Census Bureau is 
conducting an extensive nationwide operation to modernize and 
consolidate MAF/TIGER. We are using GPS to align the streets of 
the TIGER maps and working with communities to ensure that we 
do not miss a new neighborhood. To date, we have realigned the 
streets and roads for about 1,700 of the Nation's counties, 
with about 1,600 more to go in order to reach completion by 
April 2008. We will complete this task on time.
    We are also working to improve our most significant 
partnership opportunity--the Local Update of Census Addresses 
program [LUCA]. In 2007, we will invite the Nation's 39,000 
municipalities to help update the address list for their 
communities for use in the 2010 census. Knowing that 
communities differ, we will offer different options for 
governments to participate, ranging from a full review of the 
address file to a simple review of housing unit counts.
    We are working to strengthen the infrastructure of the 2010 
census through technology. As the chairman said, this will be 
the first truly high-tech census. Our efforts have centered on 
two major systems: the 2010 Decennial Census Response 
Integration System [DRIS], as we call it, and the Field Data 
Collection Automation system [FDCA]. These large information 
technology contracts together total over $1 billion. The 
purpose of the DRIS contract, which was awarded last year to 
Lockheed Martin Corp., is to ensure accurate and protected 
collection and storage of Americans' data whether by paper form 
or handheld computer. The FDCA contract, which will be awarded 
in the next month or so, provides automation resources to 
support field data collection operations.
    As we move forward, it is essential to remain on schedule. 
This year, we will conduct a final test census in Travis 
County, TX, and the Cheyenne River Reservation in South Dakota. 
These tests are important to our ability to conduct a 
successful dress rehearsal and ultimately a successful census. 
We will conduct the 2008 dress rehearsal in two locations: San 
Joaquin County, CA, and in nine counties surrounding 
Fayetteville, NC. In fact, some aspects of the dress rehearsal 
are already underway, including LUCA.
    The dress rehearsal will use the technology we plan to use 
in the decennial census, and this is quite important. No last-
minute experiments. We will include a targeted second mailing 
of questionnaires to encourage households to respond and reduce 
costly non-response followup. We will also send a targeting 
mailing of Spanish-English bilingual questionnaires in selected 
neighborhoods.
    It is important to note that many of the 2010 census 
operations and procedures, and especially decisions, those 
involving technology, need to be in place before the dress 
rehearsal. The President's budget recognizes that we cannot 
postpone improvements or tests without introducing risk to the 
census.
    All of this underscores the importance of congressional 
support for all aspects of the 2010 decennial census program 
from the ACS to the dress rehearsal. Thousands of individual 
operations and procedures must be successfully implemented 
before census day in order to ensure the success of the census.
    Mr. Chairman, I thank you for this opportunity to provide 
an update to the Congress, and I look forward to answering your 
questions.
    Thank you.
    [The prepared statement of Mr. Kincannon follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.005
    
    [GRAPHIC] [TIFF OMITTED] T7016.006
    
    [GRAPHIC] [TIFF OMITTED] T7016.007
    
    [GRAPHIC] [TIFF OMITTED] T7016.008
    
    Mr. Turner. Thank you.
    Ms. Farrell.

                  STATEMENT OF BRENDA FARRELL

    Ms. Farrell. Mr. Chairman, Mr. Clay, thank you for the 
opportunity to be here today to discuss the Census Bureau's 
preparations for the 2010 census. Full and comprehensive 
planning is crucial to the success of any large, long-term 
project, especially with the costs, complexity, and high stakes 
of the decennial census. The 2010 census projected life-cycle 
costs span 13 years and total over $11 billion, and its 
recruitment goals are similar to the 2000 census--2\1/2\ 
million applicants could be recruited to carry out census 
operations.
    Given the escalating costs of the census in an era of 
serious national fiscal challenges, oversight will be 
particularly important. As shown in the figures on the screen 
and on page 6 of the testimony, the projected average cost is 
$72 per housing unit for 2010, and it is nearly 5\1/2\ times 
greater than the $13 it cost to count each household in 1970 in 
constant fiscal year 2000 dollars.
    My remarks today are based on findings from our prior 
report and preliminary results from ongoing work that we plan 
to issue in the near future. First, I will describe the overall 
progress that the Bureau is making toward preparing the 2010 
census. Second, I will note some issues that pose a risk to a 
successful census. Most importantly, the Bureau is further 
along in planning the 2010 census compared to a similar point 
in time during the 2000 census cycle.
    Early in this decade, the Bureau developed a promising 
design to achieve its principal goals for the 2010 census. The 
fundamental design of the census has the potential to control 
costs and improve coverage and accuracy. Also noteworthy is the 
Bureau's greater willingness to outsource key census-taking 
operations that would be difficult for it to carry out on its 
own. It will be important for the Bureau to focus on its 
acquisition activities to help ensure the 2010 contractors 
fulfill the Bureau's expectations.
    While the Bureau should be commended for the progress that 
it has made, it will be important for the Bureau to resolve 
issues that pose a risk to a successful census. For example, 
the Bureau plans to use handheld mobile computing devices to 
help develop the census address list and collect data from 
millions of households that do not respond to the initial 
census questionnaires. These handheld devices are an important 
step forward because they are designed to replace many of the 
paper questionnaires and maps that were used in past censuses 
and are a key element of the Field Data Collection Automation 
program, one of the acquisition contracts that my colleague Mr. 
Powner will discuss.
    The Bureau has never before used these devices in a 
decennial. In tests held to date, census workers found the 
devices easy to use for such things as using the electronic 
maps to find their assignment areas. On the other hand, the 
reliability of the devices proved troublesome as the devices 
experienced transmission problems and memory overload. The 
Bureau has taken steps to address these issues, and next month 
the devices will be evaluated again, and we will be onsite to 
assess the extent to which the Bureau has addressed these 
reliability issues.
    Further, I would like to note that Hurricanes Katrina and 
Rita highlight the importance of contingency planning and 
examining whether the Bureau's existing operations are adequate 
for capturing the demographic and physical changes that have 
occurred along the Gulf Coast. We have had a preliminary 
discussion with the Bureau on this topic and will continue to 
assess the Bureau's contingency planning as part of our 
oversight of the 2010 census.
    In conclusion, while the ramp-up to 2010 is making 
progress, past experience has shown that Congress has every 
reason to remain vigilant. As we have done throughout the past 
several decades, we look forward to supporting the subcommittee 
in its decisionmaking and oversight efforts.
    Mr. Chairman, this concludes my statement. I will be happy 
to take questions from you or Mr. Clay at your convenience.
    [The prepared statement of Ms. Farrell follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.009
    
    [GRAPHIC] [TIFF OMITTED] T7016.010
    
    [GRAPHIC] [TIFF OMITTED] T7016.011
    
    [GRAPHIC] [TIFF OMITTED] T7016.012
    
    [GRAPHIC] [TIFF OMITTED] T7016.013
    
    [GRAPHIC] [TIFF OMITTED] T7016.014
    
    [GRAPHIC] [TIFF OMITTED] T7016.015
    
    [GRAPHIC] [TIFF OMITTED] T7016.016
    
    [GRAPHIC] [TIFF OMITTED] T7016.017
    
    [GRAPHIC] [TIFF OMITTED] T7016.018
    
    [GRAPHIC] [TIFF OMITTED] T7016.019
    
    [GRAPHIC] [TIFF OMITTED] T7016.020
    
    [GRAPHIC] [TIFF OMITTED] T7016.021
    
    [GRAPHIC] [TIFF OMITTED] T7016.022
    
    [GRAPHIC] [TIFF OMITTED] T7016.023
    
    [GRAPHIC] [TIFF OMITTED] T7016.024
    
    [GRAPHIC] [TIFF OMITTED] T7016.025
    
    [GRAPHIC] [TIFF OMITTED] T7016.026
    
    [GRAPHIC] [TIFF OMITTED] T7016.027
    
    [GRAPHIC] [TIFF OMITTED] T7016.028
    
    [GRAPHIC] [TIFF OMITTED] T7016.029
    
    Mr. Turner. Thank you.
    Mr. Powner.

                   STATEMENT OF DAVID POWNER

    Mr. Powner. Chairman Turner, Ranking Member Clay, we 
appreciate the opportunity to testify on key acquisitions 
supporting the 2010 decennial census. The use of automation 
will be critical to the success of the upcoming census. Nearly 
a quarter of the 2010 respondents are expected to use the 
Internet. Key technologies will be used to standardize 
responses, and field-based enumerators plan to use nearly half 
a billion mobile computing devices.
    However, acquiring technologies can present enormous 
challenges and risks if not managed effectively. These 
technology acquisition risks have been highlighted in numerous 
oversight hearings by Chairman Davis at the full committee, and 
your early attention to and leadership over the decennial 
acquisitions, Mr. Chairman, will hopefully ensure greater 
Bureau and contractor accountability.
    This morning, as requested, I will summarize the importance 
and status of two key acquisitions that are critical to the 
2010 decennial and key management activities that the Census 
Bureau is establishing that are crucial to delivering this 
technology on time, at cost, and with the promised 
functionality.
    The Census Bureau has initiated efforts to acquire the 
Response Integration System and the Field Data Collection 
Automation program. The integration system is intended to 
receive and standardize census data from the various response 
modes, including census forms, telephone agents, and the 
Internet. It is also intended to standardize data collected 
from mobile computing devices, which are key to capturing non-
response followup.
    The mobile devices are part of the data collection program, 
which is also expected to provide office automation for 
regional and local census offices, as well as the 
telecommunications infrastructure. The integration contract was 
awarded to Lockheed Martin and its seven subcontractors in 
October, and the Field Data Collection contract was to be 
awarded at the end of this month. However, the Director's 
testimony this morning indicates the contract will occur in 
late spring. Both projects' life-cycle costs are expected to 
total over $1 billion. Both acquisitions involve ambitious 
schedules to deliver the needed functionality to support the 
planned 2008 dress rehearsal and are absolutely essential to 
achieving the goals of the decennial, including increased 
coverage, accuracy, and timeliness of the data.
    Key management activities and processes are needed to 
effectively manage these acquisitions. Last June, we reported 
to you, Mr. Chairman, that the Census Bureau's institutional 
information technology management capacity still had room for 
improvement. Given these weaknesses and the importance of the 
integration system and the Field Data Collection program, you 
asked for a detailed review of these acquisitions to assist in 
your oversight of the decennial. While both projects have 
initiated steps to establish key project management activities, 
neither has the full set of capabilities needed to effectively 
manage these acquisitions. Incomplete management activities 
include those for requirements management, risk management, and 
contract monitoring. These increase the risk that these 
projects will encounter problems in meeting cost and schedule 
expectations.
    Given the immovable deadline for performing the 2010 
decennial census, if unexpected problems occur, the Bureau will 
be faced with two options to address these problems: one, 
throwing more money at them; or, two, accepting systems with 
reduced functionality.
    To address these program management shortfalls, my written 
statement includes a number of specific recommendations that 
focus on further defining exactly what is expected from these 
acquisitions, establishing robust risk mitigation programs that 
include early escalation and quick resolution of risks, and 
establishing clear metrics to oversee contractor performance.
    The decennial management team appears to be dedicated to 
bolstering its management capabilities and have told us that 
they plan to complete these important activities as soon as 
possible. I would like to stress that these endorsed management 
activities ultimately are about placing the Government in 
charge of defining what it wants, being on top of risks, and 
having metrics to measure contractor performance. Relying on 
contractors for technical solutions is fine. Relying on them 
for requirements and performance metrics is not.
    Mr. Chairman, the Response Integration and the Field Data 
Collection program are crucial to the success of the decennial. 
Although we commend efforts to date to establish these key 
contracts, additional management attention is needed to 
effectively oversee these acquisitions. Establishing the 
recommended management activities are critical to ensuring that 
the Bureau is in the driver's seat as these acquisitions 
process forward.
    This concludes my statement, Mr. Chairman. Thank you for 
your leadership and oversight of the decennial census.
    [The prepared statement of Mr. Powner follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.030
    
    [GRAPHIC] [TIFF OMITTED] T7016.031
    
    [GRAPHIC] [TIFF OMITTED] T7016.032
    
    [GRAPHIC] [TIFF OMITTED] T7016.033
    
    [GRAPHIC] [TIFF OMITTED] T7016.034
    
    [GRAPHIC] [TIFF OMITTED] T7016.035
    
    [GRAPHIC] [TIFF OMITTED] T7016.036
    
    [GRAPHIC] [TIFF OMITTED] T7016.037
    
    [GRAPHIC] [TIFF OMITTED] T7016.038
    
    [GRAPHIC] [TIFF OMITTED] T7016.039
    
    [GRAPHIC] [TIFF OMITTED] T7016.040
    
    [GRAPHIC] [TIFF OMITTED] T7016.041
    
    [GRAPHIC] [TIFF OMITTED] T7016.042
    
    [GRAPHIC] [TIFF OMITTED] T7016.043
    
    [GRAPHIC] [TIFF OMITTED] T7016.044
    
    [GRAPHIC] [TIFF OMITTED] T7016.045
    
    [GRAPHIC] [TIFF OMITTED] T7016.046
    
    [GRAPHIC] [TIFF OMITTED] T7016.047
    
    [GRAPHIC] [TIFF OMITTED] T7016.048
    
    [GRAPHIC] [TIFF OMITTED] T7016.049
    
    [GRAPHIC] [TIFF OMITTED] T7016.050
    
    [GRAPHIC] [TIFF OMITTED] T7016.051
    
    [GRAPHIC] [TIFF OMITTED] T7016.052
    
    [GRAPHIC] [TIFF OMITTED] T7016.053
    
    [GRAPHIC] [TIFF OMITTED] T7016.054
    
    [GRAPHIC] [TIFF OMITTED] T7016.055
    
    [GRAPHIC] [TIFF OMITTED] T7016.056
    
    [GRAPHIC] [TIFF OMITTED] T7016.057
    
    [GRAPHIC] [TIFF OMITTED] T7016.058
    
    [GRAPHIC] [TIFF OMITTED] T7016.059
    
    [GRAPHIC] [TIFF OMITTED] T7016.060
    
    [GRAPHIC] [TIFF OMITTED] T7016.061
    
    [GRAPHIC] [TIFF OMITTED] T7016.062
    
    [GRAPHIC] [TIFF OMITTED] T7016.063
    
    [GRAPHIC] [TIFF OMITTED] T7016.064
    
    [GRAPHIC] [TIFF OMITTED] T7016.065
    
    [GRAPHIC] [TIFF OMITTED] T7016.066
    
    [GRAPHIC] [TIFF OMITTED] T7016.067
    
    [GRAPHIC] [TIFF OMITTED] T7016.068
    
    [GRAPHIC] [TIFF OMITTED] T7016.069
    
    [GRAPHIC] [TIFF OMITTED] T7016.070
    
    [GRAPHIC] [TIFF OMITTED] T7016.071
    
    [GRAPHIC] [TIFF OMITTED] T7016.072
    
    [GRAPHIC] [TIFF OMITTED] T7016.073
    
    [GRAPHIC] [TIFF OMITTED] T7016.074
    
    [GRAPHIC] [TIFF OMITTED] T7016.075
    
    [GRAPHIC] [TIFF OMITTED] T7016.076
    
    [GRAPHIC] [TIFF OMITTED] T7016.077
    
    [GRAPHIC] [TIFF OMITTED] T7016.078
    
    [GRAPHIC] [TIFF OMITTED] T7016.079
    
    [GRAPHIC] [TIFF OMITTED] T7016.080
    
    [GRAPHIC] [TIFF OMITTED] T7016.081
    
    [GRAPHIC] [TIFF OMITTED] T7016.082
    
    [GRAPHIC] [TIFF OMITTED] T7016.083
    
    [GRAPHIC] [TIFF OMITTED] T7016.084
    
    [GRAPHIC] [TIFF OMITTED] T7016.085
    
    [GRAPHIC] [TIFF OMITTED] T7016.086
    
    [GRAPHIC] [TIFF OMITTED] T7016.087
    
    [GRAPHIC] [TIFF OMITTED] T7016.088
    
    [GRAPHIC] [TIFF OMITTED] T7016.089
    
    [GRAPHIC] [TIFF OMITTED] T7016.090
    
    [GRAPHIC] [TIFF OMITTED] T7016.091
    
    [GRAPHIC] [TIFF OMITTED] T7016.092
    
    [GRAPHIC] [TIFF OMITTED] T7016.093
    
    [GRAPHIC] [TIFF OMITTED] T7016.094
    
    [GRAPHIC] [TIFF OMITTED] T7016.095
    
    [GRAPHIC] [TIFF OMITTED] T7016.096
    
    [GRAPHIC] [TIFF OMITTED] T7016.097
    
    [GRAPHIC] [TIFF OMITTED] T7016.098
    
    [GRAPHIC] [TIFF OMITTED] T7016.099
    
    [GRAPHIC] [TIFF OMITTED] T7016.100
    
    [GRAPHIC] [TIFF OMITTED] T7016.101
    
    [GRAPHIC] [TIFF OMITTED] T7016.102
    
    [GRAPHIC] [TIFF OMITTED] T7016.103
    
    [GRAPHIC] [TIFF OMITTED] T7016.104
    
    Mr. Turner. Thank you. I want to recognize that we have 
been joined by Carolyn Maloney from New York. Thank you for 
being here today.
    Mrs. Maloney. Nice to see you. I would ask permission to 
place my opening comments in the record?
    Mr. Turner. Without objection.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T7016.105

[GRAPHIC] [TIFF OMITTED] T7016.106

    Mr. Turner. Recognizing that we have an 11 o'clock address 
by the Prime Minister of the Republic of Italy, we are going to 
try to conclude our questions to panel one within that time 
period, which you have been very precise within the timeframe 
of your oral remarks, and I appreciate that, giving us what 
should be ample time to ask questions.
    I would like to start with Director Kincannon. Does the 
Bureau have any plans to adjust the 2010 census count? This 
includes working with any outside nongovernment entities to 
plan for adjustment.
    Mr. Kincannon. No, Mr. Chairman, we do not have plans to 
address the census results. We spent more than 3 years working 
on what we thought was a well-designed system to provide 
improvements to the quality of the count. But at the end of 
that more than 3-year period of our best experts working on it, 
our conclusion was that it was not possible with the technology 
and means at our disposal to adjust the census for the main 
products of the census which required block-level statistics 
and place statistics. We simply cannot do that. So we are not 
planning on doing that, sir.
    We do plan to measure coverage for purposes of continuing 
to assess and improve the techniques we use in the census, 
however.
    Mr. Turner. Director Kincannon, I believe that in your 
written testimony you did not talk about the power of the 
Internet and its assistance it can provide in the 2010 census. 
Many response-driven organizations have gone the way of the 
Internet as a way of collecting their data. Certainly other 
panel members have referenced the Internet.
    Will you share with us how the census will be harnessing 
the Internet to allow people to respond to their census 
questionnaire?
    Mr. Kincannon. Well, I am aware that the Congress has much 
optimism about the Internet as a way of reducing the cost of 
many Government activities, and sometimes that has worked. Our 
experience with household surveys and with census tests has 
been that it is not something that increases response or 
improves the quality of the data that we get.
    We tested this in the 2003 national census test. There was 
no difference in the response rate in the panel that had no 
option to respond by the Internet from the one that had the 
option to respond by the Internet. About 10 percent of the 
responses in the Internet test panel came from the Internet, 
but it did not increase response at all.
    Furthermore, the concerns about the complexity of dealing 
with the Internet make me very cautious in how much we would 
depend on that. The well-documented effort that phishing and 
spamming on the IRS Web site are a caution to me. I nearly fell 
victim to that myself, and I can see how a person who tries to 
respond to the census might well be duped into providing 
information that would lead to identity theft on the Internet. 
And if it does not increase our efficiency or effectiveness, 
increase our response rates, or measurably reduce our costs, 
then the cost of protecting against that is probably not 
warranted.
    We continue to explore and we contemplate having an option 
for Internet response, but I do not see it as a main component 
of what we will do.
    Mr. Turner. Ms. Farrell or Mr. Powner, would you like to 
respond to that, on the prospects of the Internet use?
    Mr. Powner. If I could, I think it is great that we 
acknowledge the security considerations with using the Internet 
for this next census, although some of the Bureau's internal 
documentation claim that up to a quarter of the respondents 
could, in fact, use the Internet to respond to this upcoming 
census.
    I think what is key is if you look in particular at one of 
the key acquisitions, which is the response system, which the 
contract was already let in October. You have a contractor that 
is working toward integrating Internet, phone, and paper forms, 
and it is very important that, although I see where the 
Director is coming from in terms of it may be lower than that 
quarter of the respondents, it is very important that we be 
prepared from a systems perspective to respond to a higher 
number of Internet responses and that the systems have the 
capability and the contractors are well prepared to integrate 
those Internet responses.
    Mr. Turner. There have been some concerns about the 
handhelds and if they should fail in 2008 or 2010. Mr. Powner, 
are you comfortable, or Ms. Farrell, with the Bureau's 
contingency planning with respect to the handhelds if they 
should not perform?
    Ms. Farrell. The handheld computing devices are a key part 
of the design for the 2010 census, and to date, for the 2006 
and 2008 dress rehearsal, we are not aware of any backup plans 
in the event that there are widespread problems with these 
devices. If they fail, it will cause serious operational 
challenges for the Bureau to back these up with paper 
questionnaires or whatever else will be necessary for the 
verification for address canvassing.
    Mr. Powner. Mr. Chairman, if I can expand on Ms. Farrell's 
response, if you look at the FDCA contract, which is to be 
awarded some time this spring--and handheld is a part of that 
contract--it is very important to address the problems that 
have been identified to date that the Census Bureau specifies 
performance requirements. We have had serious performance 
issues with the handhelds to date, so understanding what the 
availability of those handhelds should be, what the response 
time is, what our peak loads are, that clearly needs to be 
specified in these contracts so that we could hold contractors 
accountable for those specific requirements. That ties to one 
of our management activities where you look at the requirements 
management area.
    Mr. Turner. Director Kincannon, would you like to respond?
    Mr. Kincannon. Yes, I would be happy to. The handhelds that 
we have tested in the field to date have been ones developed at 
the Census Bureau, and they have confirmed our opinion of a 
couple of years ago that we were not able to develop a device 
that would meet all the requirements for the dress rehearsal or 
the census ultimately. We simply do not have those 
technological capabilities.
    We advanced in the process of procuring those services, and 
I am happy to say that all of those companies who have sought 
to submit a bid have submitted devices, prototype devices, that 
exceed what we were able to do and that appear that they can 
fully meet the functional requirements, including security, 
ease of use, and communications, both wireless and landline. So 
we are confident that they will be able to meet the 
requirements that we have set out.
    Mr. Turner. So if I could rephrase the question, my 
understanding of your answer, are you saying that you trust 
them enough that you don't believe that there is a contingency 
plan that is necessary or your contingency planning has not 
been completed as you are looking to trying to nail down the 
greatest efficiency of these units?
    Mr. Kincannon. Well, it is the latter, Mr. Chairman. We do 
have contingency planning, and we are concerned about that. But 
we are now at this stage of things much less concerned than we 
were a year ago about widespread failures. We will know that 
more when the contract is awarded, I believe as GAO indicated, 
they will be closely involved in understanding the capabilities 
offered and in monitoring the testing of those capabilities.
    Mr. Turner. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Director Kincannon, can you tell me what will be done to 
test the Local Update of Census Addresses in the 2006 census 
test? Also, can you update us with an outline of Bureau plans 
on what it will do to help local governments prepare for the 
address correction program through the Local Update of Census 
Addresses program?
    Mr. Kincannon. Yes, Congressman. We did use the LUCA 
process in preparation for the 2006 test, and we evaluated any 
problems that we identified in that. We did not consider it a 
test per se because we have had a well-working LUCA process. We 
have already begun rolling out the steps for conducting LUCA 
for the dress rehearsal, and we will continue to fine-tune 
that. But it has proved a very useful process in 2000 and in 
the test censuses for ensuring that we do not miss 
neighborhoods and that we have the best local information 
incorporated in what we plan to do.
    Mr. Clay. Can you tell me about how you reach out to local 
governments and assist them or work with them?
    Mr. Kincannon. On LUCA?
    Mr. Clay. Yes.
    Mr. Kincannon. Yes, sir. Well, we offer an array of 
options. There are different degrees and sophistication of 
local governments according to their scale and other factors, 
and we offer a variety of options that they can choose within 
the LUCA depending on what they think is their best way of 
checking those addresses. We give them information in advance 
of LUCA about what materials will be provided and how they 
might use them, and, you know, so we work with them in that 
way.
    Mr. Clay. There have been many individuals forced to leave 
the Gulf Coast after the hurricanes last fall. What efforts are 
underway to account for those who have left areas affected and 
include them in the 2010 census? Will there be a measure to 
determine if these individuals have left permanently or only on 
a temporary basis? Have you all addressed that at Census and 
figured how you are going to count these individuals?
    Mr. Kincannon. Yes, Mr. Clay, we had procedures that have 
been used in the past for persons displaced in hurricanes in 
the census year. Hurricane Floyd hit North Carolina pretty hard 
in 1999. A lot of people were displaced. For census 2000 we had 
procedures that we made sure we contacted both former 
residences or sites that may have been temporarily or 
permanently abandoned and people living in various shelters. We 
counted them where they said they intended to be. That was 
identified their usual place of residence.
    We are farther away, and let us hope that with the best 
human efforts and God's aid that the people displaced have 
settled in a permanent way either in their former homes or in 
new homes by 2010. But we do have procedures; they are arduous, 
and they cost extra money. But we have procedures that work 
with persons who are displaced.
    Mr. Clay. I am concerned about provisions in the 
President's budget that would lead to the elimination of the 
Survey of Income and Program Participation [SIPP], as you call 
it. SIPP is the only large-scale survey explicitly designed to 
analyze the impact of a wide variety of Government programs on 
the well-being of some of America's poorest families. What 
justification can you offer us for the elimination of the SIPP 
program?
    Mr. Kincannon. Well, first let me give the context. We 
operate, as always, in a setting of constrained resources. The 
Congress does not give us all the money that we ask for. 
Sometimes the policies that we follow in the executive branch 
mean that we are accorded lower priorities than some other 
things. That is not surprising. We know that.
    In the formulation of the budget for 2007, we did not have 
room within our allowance for all the things that we had done 
and wanted to do. Then we followed what is our practice and 
what is mandated by Congress over the last several years, which 
is to look at all our programs, do the things that are of 
highest priority, deal differently with things that are of 
lowest priority or troubled by quality and so on.
    When we assessed this within the Census Bureau, we realized 
that the SIPP program is rather mature; more than 20 years it 
has been in place. It has been useful. It has some chronic 
problems that we either have not been able to solve or have not 
been resourced sufficiently to solve, and that has troubled us.
    So what we are looking for is in a world that has changed 
over 20 years, with new methods, much more successful means of 
using administrative records from programs intended to assist 
those in poverty or with other kinds of difficulties, and with 
the successful appearance of the American Community Survey 
providing yet another source of data on the condition of 
families, that we want to put together a new program, a re-
engineered program that will continue to meet the needs of 
Federal agencies for longitudinal studies of income dynamics. 
This includes the HHS Assistant Secretary for Planning and 
Evaluation, the Food and Nutrition Service in Agriculture, the 
Administration on Children and Families, the Social Security 
Administration, and other agencies that have as their 
responsibility meeting the needs of people who may be 
disadvantaged or at risk.
    So we want to re-engineer what we are doing, take 
recognition and build on the new sources of data that we have, 
and find a way to continue to meet those needs within the 
resource constraints we have.
    Mr. Clay. Just out of curiosity, what were some of the 
difficulties in gathering the data?
    Mr. Kincannon. The SIPP is a very complex survey deigned to 
produce both cross-sectional and longitudinal data, and the 
need for longitudinal data means that you have to continue 
interviewing the same household over a period of a couple of 
years, actually.
    Mr. Clay. Four years.
    Mr. Kincannon. You are better informed than I am. Your 
briefing notes are better than mine.
    Mr. Clay. I am a speed reader. [Laughter.]
    Mr. Kincannon. Well, I am being too long-winded if I am 
giving you a chance to read all that.
    It is very difficult, we have found, and increasingly 
difficult to keep up the response of families, follow them when 
they move, and so on over that 4-year period of time, so that 
there is severe attrition. And we need to find some way 
differently to address that.
    Mr. Clay. And you think you will come up with a more 
efficient manner or condense the way you take the survey?
    Mr. Kincannon. Well, we think that we can come up with a 
better model of using tools now available to us, both from 
survey results in the ACS and CPS and our gained experience in 
modeling and improved access and capability with regard to 
administrative records, and providing something that will help 
these agencies meet their responsibilities.
    Mr. Clay. I thank you for your response. I appreciate it.
    Mr. Kincannon. Thank you.
    Mr. Turner. Ms. Foxx.
    Ms. Foxx. I would like to followup on the question about 
what do you do about people who have been displaced by 
something like Katrina. One thing I am concerned about is it 
seems to me that if people have been away from the home for 5 
years, what does that do to distort the numbers? But I would 
like to know something about the cost of that. You said it is 
much more expensive. And who is making the decision on the 
cost/benefit analysis of that program versus another program 
where we might be able to gather better data? I am very 
interested in that.
    Mr. Kincannon. Well, I can talk a little bit more along 
those lines and would be very happy to followup with a special 
briefing with more details, both about what we did in Hurricane 
Floyd and about what we have done subsequently with Katrina 
victims.
    We have, for example, in our current surveys, we continued 
in the areas affected by Katrina and Rita and Wilma to keep up 
good response rates, so we know how to find people when they 
have moved and we have ways that are very successful in doing 
that.
    In the American Community Survey, we have added some 
instructions--we did not change the questionnaire--to make sure 
that people who were evacuated and staying in other people's 
homes do get identified and surveyed so that we can then tell 
from the questions already on the survey something about their 
condition and in some limited circumstances about where they 
were before.
    We plan to use those data to produce information on the 
characteristics of affected areas for the 8 months of 2005 
before Katrina struck and for the 4 months after. This should 
be of some use both to Federal and local officials in assessing 
the condition.
    We worked with the Bureau of Labor Statistics to identify 
in a similar way in the Current Population Survey people who 
had been evacuated, and the Labor Department was then able to 
assess differential rates of unemployment for people who were 
settled differently.
    The CPS is limited in sample size, and so it does not give 
for that small a universe of people information below the 
national level. The American Community Survey will be able to 
give more information at smaller levels.
    Both of them are limited in that the Current Population 
Survey does not address people who live in group quarters. They 
are not handled in the labor force survey traditionally. The 
American Community Survey began covering group quarters only 
when funding was provided for fiscal year 2006, so it will not 
be able to tell us much about people who were in shelters and 
such like, but if they are living in trailers, FEMA trailers 
and so on, yes, we will get information about them.
    Ms. Foxx. Thank you.
    Mr. Turner. Mrs. Maloney.
    Mrs. Maloney. I want to thank the chairman and ranking 
member for calling this, and I would like to direct my 
questions to Mr. Kincannon. But I would first like to ask Ms. 
Brenda Farrell--and it is a followup of correspondence I have 
had with the GAO--to get back to me in writing. Does the GAO 
have the technical expertise to evaluate the Census Bureau's 
techniques for measuring the accuracy of the 2010 census? If 
not, when do you expect to have that expertise? This is a 
followup of letters that I have sent to GAO requesting this 
analysis. They say they are not capable of doing it. If you 
could get back to me on what exactly--what hurdles they need to 
go through so that they can have the technical expertise to 
evaluate the accuracy of the 2010 census. I would get it to you 
in writing, but I really want to get to Mr. Kincannon because 
we have been called to a meeting right now, a very important 
one. We have a foreign head of state who will be addressing a 
joint session of Congress.
    I would like a yes or no answer. Without SIPP, we will not 
be able to adequately study many policy issues such as the 
long-term effects of welfare reform or the effects of recent 
budget cuts and program changes. Is the Census Bureau concerned 
about helping Congress on both sides of the aisle evaluate 
public policy? Yes or no.
    Mr. Kincannon. Yes.
    Mrs. Maloney. OK. Then going back to the question that was 
raised by Ranking Member Clay about the decision to really stop 
the SIPP program because of budget constraints, there is no 
guarantee that in the future the budget constraints will not be 
worse. And many Members of Congress and really the scientific 
community--the research community is very concerned about the 
elimination of the SIPP program and recognizes that the Census 
will not be able to replace such a unique and important survey 
with one costing less. The SIPP took over 7 years to develop, 
as did the American Community Survey, as you pointed out, and 
Congress as well as private foundations, research institutes, 
have invested millions in understanding and processing the 
data.
    My question is: Is there any other place that researchers 
can get comparable information on program participation and 
income on a sub-annual basis? And I again would like this 
answer in writing because the research community is telling me 
and the scientific community is telling me that there is not 
comparable information. And I feel that this is very important. 
We need to know what is happening in the country. We need to 
know what is happening with our populations in certain areas, 
and the SIPP provided valuable information.
    I know you mentioned American Community Survey and a lot of 
other surveys when you responded to Mr. Clay, but the research 
community is telling my office and me personally that this will 
not give the same information. And so I would like it in 
writing, the answer to this question, because I think this is 
so serious that we should really look at it in depth.
    I would like to note that Ranking Member Clay and I, along 
with Members on both sides of the aisle, have sent a letter to 
the President--we are sending one to have this money reinstated 
to the budget, because we believe this research is very 
important.
    Would you like to elaborate? Is there one that gives you 
the exact comparable information on program participation and 
income on a sub-annual basis?
    Mr. Kincannon. The dimension that is missing in existing 
other surveys than SIPP--that is, the CPS and the ACS--is the 
longitudinal dimension. We have to find a way to craft that 
element using data from those surveys, but probably with 
follow-on surveys or independent surveys, and using 
administrative records from the programs affected.
    We cannot describe now in detail exactly how that will be 
done. We will work on that with the Federal agencies that have 
quite important needs, with the Congress, which has important 
needs and we understand that. We are the servant of the 
Congress in this regard. My ``yes'' was not an idle yes. And we 
will work with the research community.
    Whether we can replicate every topical nuance of the SIPP 
is another question, but we can find a way to substitute for 
the longitudinal element with a new longitudinal element, and 
that is quite important to do.
    I would also like to say----
    Mrs. Maloney. Before we abolish it, I would like to see in 
place what it is you are going to put out there, because the 
longitudinal is very, very important to understand where we 
are, where we are going, where we have been in the past. And I 
just put that out there for the scientific community.
    I would like to followup that the Census Bureau has 
released at least two memos discussing why they are 
discontinuing the SIPP. In both cases, the memo states that the 
reason for eliminating the SIPP have to do with the lateness of 
the data and the problems with attrition and nonresponse.
    This memo does not acknowledge that the SIPP's nonresponse 
rate is the same as the Current Population Survey, yet there is 
no talk about getting rid of that, which is also conducted by 
the Census Bureau for the Bureau of Labor Statistics, and that 
compared to the two other national longitudinal surveys, 
attrition is lower than the panel study of income dynamics and 
about the same as the National Longitudinal Study of Youth.
    Furthermore, data for 2004 was released prior to data from 
the March Current Population Survey, so it appears Census has 
worked hard to get the data out quickly. If these reasons for 
eliminating the SIPP are invalid, is the reason SIPP is being 
cut purely due to budget constraints rather than research needs 
or substantive issues with the data?
    Mr. Kincannon. No, it is not solely for budget constraints. 
It does stem from longstanding concerns about the robustness of 
SIPP.
    The Census Bureau field staff is extremely capable. They 
get a higher response rate than almost anybody else working to 
collect data, and I am proud of that. But, still, the attrition 
in SIPP is a serious problem. Attrition is a characteristic 
problem of longitudinal surveys, but it has, in our view, 
become more serious here. Our choice in a constrained resource 
environment was to cut everything in a kind of an unmanagerial, 
mindless sense, reducing everything equally, or to apply 
priorities, as the Congress instructed us to do.
    That is why after 2 or 3 years of asking Congress for funds 
to cover 20 percent of the economic activity in this country 
between economic censuses we finally stopped asking for that. 
We have not stopped asking for money for longitudinal data on 
income dynamics. We expect to ask for a program of a 
substantial level to continue doing that, and we just have to 
accommodate the realities of weaknesses in SIPP and what we 
will have in resources.
    Certainly, in terms of priorities, we rank the censuses 
above others. The population and housing census and all the 
components, including the ACS, the economic censuses--these are 
fundamental. The economic censuses are the only time, twice a 
decade, when we measure almost all the economic activity in the 
country. The other years, we are making policy, the ES 
calculating GDP and so forth, missing 20 percent of the 
economic activity in the country, and it is the part in the 
service sector where jobs are being created much more than in 
other sectors of the economy.
    We have to make our best set of priorities within the 
constraints placed on us by the Congress, among others.
    Mrs. Maloney. But you stated that attrition and----
    Mr. Turner. Mrs. Maloney, I hate to interrupt, but the 
House and Senate will convene shortly in a joint meeting to 
receive the Prime Minister of the Republic of Italy. Because 
House rules do not allow committees to meet during a joint 
meeting of Congress and out of respect for the Prime Minister, 
the subcommittee will be recessing, subject to the call of the 
Chair. If you are unable----
    Mrs. Maloney. Mr. Chairman.
    Mr. Turner. I was just going to say, if you were unable----
    Mrs. Maloney. Point of personal privilege? May I make a 
request?
    Mr. Turner. I was just going to suggest----
    Mrs. Maloney. OK.
    Mr. Turner. I would just say if you are not able to--and we 
are going to let this panel go, if it is OK with you. Perhaps 
if you could take the next 2 minutes and ask your questions for 
the record to which they could respond.
    Mrs. Maloney. OK. Thank you very much, and I will get them 
in writing.
    Again, last year, we asked for specific information on the 
plans for measuring the accuracy of the 2010 census. After a 
long delay, I got a document that did not provide very much 
information. Please provide the committee, respectfully, with 
specific milestones and deadlines for decisions on how you will 
measure the accuracy, when the operational procedures for that 
measurement will take place, and when you will report to 
Congress on the accuracy of the 2010 census.
    Also, the Census Bureau is including a question on ancestry 
on the 2010 census. Consequently, the Census Bureau will be in 
a position to provide agencies like the Department of Homeland 
Security with counts on the number of Greek Americans, Indian 
Americans, Arab Americans, Irish Americans on a block-by-block 
basis. What is the Census Bureau's policy on providing this 
kind of block-level information to law enforcement agencies?
    Again, I thank you for your very difficult job. We rely on 
the statistics that you give us. I am particularly disturbed by 
the pattern of the gap between the haves and the have-nots in 
our country. It is growing in a way that I believe people on 
both sides of the aisle are tremendously concerned. It is not 
good for the wealthiest people in our country. It is not good 
for the poorest people. And that SIPP program was the document 
that really gave the information of what was exactly happening 
with this gap, and I think that is important for policymakers 
because we certainly want our country to prosper, all of our 
citizens to prosper, and I think it is important to track it.
    So I just want to underscore that I really do not want to 
see it eliminated unless you have in place something that 
really takes account for that data. And if you are going to 
eliminate it, I feel that there would be members on both sides 
of the aisle that would do a budget amendment that would 
restore specifically what was needed for that data, and if you 
could get us the specific costs, we could work on it.
    Thank you very much.
    Mr. Turner. Thank you, Mrs. Maloney.
    The subcommittee will now recess subject to the call of the 
Chair. The subcommittee will reconvene immediately after the 
joint meeting of Congress, and we will adjourn this panel and 
commence with panel two when we return.
    Thank you.
    [Recess.]
    Ms. Foxx [presiding]. Thank you all for coming back after 
the brief recess we had.
    It is the policy of this committee that all witnesses be 
sworn in before they testify, so I ask that the second panel of 
witnesses please rise and raise your right hands.
    [Witnesses sworn.]
    Ms. Foxx. Thank you. Let the record show that all witnesses 
responded in the affirmative.
    Dr. Rector, we will begin with you.

 STATEMENTS OF RALPH RECTOR, PH.D., SENIOR RESEARCH FELLOW AND 
    PROJECT MANAGER, CENTER FOR DATA ANALYSIS, THE HERITAGE 
   FOUNDATION; ANDREW REAMER, PH.D., DEPUTY DIRECTOR, URBAN 
   MARKETS INITIATIVE, THE BROOKINGS INSTITUTION; AND MARGO 
    ANDERSON, PH.D., PROFESSOR, HISTORY AND URBAN STUDIES, 
               UNIVERSITY OF WISCONSIN-MILWAUKEE

                   STATEMENT OF RALPH RECTOR

    Mr. Rector. Mr. Chairman and members of the subcommittee, 
thank you for inviting me to testify today. I am a senior 
research fellow and project manager in the Heritage 
Foundation's Center for Data Analysis. I participate in 
professional organizations that deal with Federal statistical 
issues. However, the testimony presented today reflects my own 
views, not necessarily those of the Heritage Foundation or any 
other organization.
    Research within Heritage's Data Center focuses primarily on 
policy debates at the national level. As a result, I will limit 
my remarks to examples showing why census data are useful to 
researchers analyzing Federal policies. However, I want to 
begin by discussing the overall importance of producing an 
accurate and complete decennial census and for continuing the 
American Community Survey.
    The constitutional Framers intended the decennial census to 
play a key role in ensuring the representative nature of the 
Federal Government. The Census Bureau relies on the MAF and 
TIGER programs to produce an accurate and complete census. As 
explained more fully in my written testimony, the need to 
coordinate MAF and TIGER programs raise serious issues. 
However, implementing the ACS can help in updating and 
verifying the systems that are used to collect decennial census 
data.
    These benefits will only be realized if the ACS is 
adequately funded, and they will also only be realized if the 
Census Bureau works closely with governmental entities and 
other groups at the State and local level, and this is the 
reason why I think the program LUCA is so important.
    In the remaining portion of my testimony, I summarize 
several reasons why census data are so useful to 
nongovernmental analysts who are studying national issues, and 
I illustrate these examples with research conducted at the 
Heritage Foundation. Nevertheless, I believe that these 
examples are typical of ways that many researchers, from a 
variety of political perspectives, use census data.
    To begin, census data help localize national issues to 
regions that are meaningful for decisionmakers and ordinary 
citizens. Traditionally, census long form data have been the 
primary--if not the only--source of information for demographic 
and socioeconomic information for regions that interest 
policymakers and the public such as congressional districts and 
Zip codes.
    Social Security critics, for example, highlighted the 
program's general low rate of return. CDA economists used 
congressional district data produced by the census in 
combination with data from other sources to estimate Social 
Security's rate of return for retirees in each State and in 
each congressional district.
    Census data are also important in evaluating the 
effectiveness of Federal grants. CBO has indicated that 
researchers should control for the independent effects when 
analyzing the outcome of Federal initiatives. For this reason, 
CDA analysts often use census data in their statistical 
evaluations of Federal programs.
    Census data have also been used to analyze proposals that 
would change Federal policies. For example, to examine the 
potential for a Social Security reform plan intended to produce 
wealth for low and moderate-wage earners, CDA analysts wanted 
to create a representative demographic profile, a set of those, 
from a data base that was large enough to permit a very 
detailed set of classifications. Fortunately, the first 
national-level American Community Survey, micro-file, was 
available, and using this micro-file, CDA analysts developed 
up-to-date profiles that would otherwise not have been 
available.
    Finally, the ongoing ACS will benefit smaller but more 
detailed special-purpose surveys administered by the Census 
Bureau, such as the current Population Survey, the Consumer 
Expenditure Survey, American Housing Survey, and the Survey of 
Income and Program Participation [SIPP]. Analysts and research 
organizations and universities routinely use these other census 
surveys to study issues such as welfare, education, and taxes.
    These smaller household surveys are adjusted to be 
consistent with data from the Census Bureau's population 
estimates program. And the ACS provides a valuable source of 
information for updating these population estimates.
    In conclusion, census data are the backbone of a 
constitutionally mandated apportionment process, and census 
data are also vital to information that analysts and 
policymakers at all levels uses.
    Thank you.
    [The prepared statement of Mr. Rector follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.107
    
    [GRAPHIC] [TIFF OMITTED] T7016.108
    
    [GRAPHIC] [TIFF OMITTED] T7016.109
    
    [GRAPHIC] [TIFF OMITTED] T7016.110
    
    [GRAPHIC] [TIFF OMITTED] T7016.111
    
    [GRAPHIC] [TIFF OMITTED] T7016.112
    
    [GRAPHIC] [TIFF OMITTED] T7016.113
    
    Ms. Foxx. Thank you.
    Dr. Reamer.

                   STATEMENT OF ANDREW REAMER

    Mr. Reamer. Madam Chairman and members of the subcommittee, 
good morning. I am Andrew Reamer, deputy director of the Urban 
Markets Initiative at the Brookings Institution, and I 
appreciate the opportunity to appear before the subcommittee to 
discuss the elements necessary to the design and implementation 
of a successful 2010 census.
    UMI's mission is to stimulate greater public and private 
investment in urban communities through improving the 
availability of data for small areas, and in this regard, the 
single most important data set is the decennial census. The 
vitality of America's businesses and economy relies 
significantly on a successful census.
    As the title of this hearing suggests, the decennial census 
has an even more essential public purpose: enabling 
apportionment and redistricting. The decennial census is the 
platform on which we build our democracy. Seats in Congress, in 
State legislatures, and in city councils are allocated on the 
basis of the census, and the census is the fundamental 
mechanism for re-creating our democracy every decade.
    In my opinion, achieving a true and precise 2010 census 
depends upon four elements.
    First, we need a complete and accurate Master Address File. 
Simply put, we cannot count people if we do not know where they 
live.
    Second, we require minimal coverage error, reducing 
omissions and double-counting.
    Third, we need a fully, consistently funded American 
Community Survey. Taking the long form out of the decennial 
census will do much to improve coverage.
    And, fourth, we need to automate field data collection 
through the use of handheld computers.
    I will review each of these elements in some detail.
    Regarding the Master Address File, the completeness and 
accuracy of the MAF was affected by three issues in 2000: 
difficulty in capturing fast-growing areas; many group quarters 
had geocoding and categorization errors; and numerous housing 
units in small, multi-unit urban buildings were missed.
    The good news is that the Census Bureau has in place the 
elements to address these issues, and there are five important 
elements to recognize.
    The first is the Community Address Updating System [CAUS], 
which uses American Community Survey field staff on an ongoing 
basis to update addresses. Our understanding is that CAUS has 
been successful.
    Second, the Bureau has provided a thoughtful, detailed plan 
to address issues regarding the accuracy of group quarters 
enumeration, categorization, and geocoding.
    Third, Congress passed a law in the 1990's to enable the 
creation of LUCA, the Local Update of Census Addresses Program, 
and LUCA provides a framework within which local governments 
can give addresses to the Census Bureau and still improve 
accuracy of the MAF; however, experience indicates that local 
government participation in 2000 was not nearly what it might 
have been. There are several barriers to local participation, 
including a lack of staff resources, capacity, and training. 
The smaller the community, the greater the barriers. And it is 
clear that LUCA can be a much more effective program for 2010, 
and achieving this potential is going to require some active, 
cooperative relationship between the Census Bureau and local 
governments, and getting LUCA underway by late 2007 is really a 
tight window here for getting LUCA up and going--late enough to 
capture addresses and soon enough to incorporate them into the 
census.
    The fourth element for the MAF is the Update/Enumerate 
program to capture units in small buildings in urban areas, 
small multi-unit buildings.
    And, last, the Census Bureau should look at working with 
State governments as a resource for updating the MAF to use 
detailed administrative records the State governments have 
available to update address lists.
    In combination, these five elements can bring about a more 
accurate MAF, and I would suggest that this committee, for its 
own edification, ask the Bureau to report on its approach for 
preparing the MAF for 2010. With this full understanding, my 
hope is that Congress can provide the resources to make that 
happen.
    With regard to coverage improvement, in 2000 there were 
more duplicates and omissions than was optimal, and the Bureau 
has embarked on a series of efforts to correct these problems, 
and we at Brookings support these, including testing 
alternative short forms and approaches for flagging households 
that have coverage problems.
    The American Community Survey, the value of that is that it 
removes the long form from the decennial census and in doing so 
allows the Census Bureau to focus entirely on doing an accurate 
population count. So full funding of the ACS in and of itself 
will help a more accurate decennial census.
    Last is the realm of technologies. It is time to apply 21st 
century methods of data collection to the decennial census, and 
the use of handheld computers should lower the cost of data 
collection quite significantly.
    So, in conclusion, an accurate census is vital to our 
democracy, and I think these four elements will help make that 
happen. And I will be happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Reamer follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.114
    
    [GRAPHIC] [TIFF OMITTED] T7016.115
    
    [GRAPHIC] [TIFF OMITTED] T7016.116
    
    [GRAPHIC] [TIFF OMITTED] T7016.117
    
    [GRAPHIC] [TIFF OMITTED] T7016.118
    
    [GRAPHIC] [TIFF OMITTED] T7016.119
    
    [GRAPHIC] [TIFF OMITTED] T7016.120
    
    [GRAPHIC] [TIFF OMITTED] T7016.121
    
    [GRAPHIC] [TIFF OMITTED] T7016.122
    
    [GRAPHIC] [TIFF OMITTED] T7016.123
    
    [GRAPHIC] [TIFF OMITTED] T7016.124
    
    [GRAPHIC] [TIFF OMITTED] T7016.125
    
    [GRAPHIC] [TIFF OMITTED] T7016.126
    
    [GRAPHIC] [TIFF OMITTED] T7016.127
    
    [GRAPHIC] [TIFF OMITTED] T7016.128
    
    [GRAPHIC] [TIFF OMITTED] T7016.129
    
    [GRAPHIC] [TIFF OMITTED] T7016.130
    
    [GRAPHIC] [TIFF OMITTED] T7016.131
    
    Ms. Foxx. Thank you.
    Dr. Anderson.

                  STATEMENT OF MARGO ANDERSON

    Ms. Anderson. Thank you for inviting me to testify. I agree 
with many of the comments that my colleagues have made, and so 
I will elaborate on some new ones.
    It is quite clear from the busy agenda that the Census 
Bureau never really stops taking a census; rather, its work is 
cyclical, and as they move from one plan to the next, they look 
back and forward.
    Relatedly, the world in which a census is taken also 
changes. Most notably the population grows, but often we are 
also quite surprised because not only does the population grow, 
it shifts in differential ways that means that the 
apportionment and redistricting mechanisms and allocation 
mechanisms lead to policy changes as a result of it.
    In this context, the Census Bureau faces something of a 
catch-22. Until the count is complete, the true dimensions of 
change are not clear. And yet the catch-22 the Bureau faces is 
that it must anticipate that change as it builds the plan, and 
that is the situation that we are in now.
    I think we need to keep that dilemma in mind as we do 
discuss the plans for 2010 and, in particular, keep the goal in 
mind of an accurate, efficient, and useful census. And as a 
result, I agree very much with the comments that my colleagues 
have made about the need to make sure that LUCA stays on track, 
that the Master Address File has development technology, and so 
forth.
    I want to make a few more comments about what I call risks 
and surprises that I see on the horizon and I think others do 
as well.
    The two big risks that are quite new and outside the realm 
of the Bureau: one is, of course, the budgetary environment, 
which we have heard much about today; and the second is that we 
may in 2010 be taking a census while the country is at war for 
the first time. In other words, the United States has never 
taken a census when the homeland was under threat, and we have 
little experience as a Nation anticipating if the war might 
affect the 2010 count.
    We need, as my colleagues have indicated here, to maintain 
funding in the development of ACS, and the risks to the 2010 
count if in some sense anything goes wrong with the ACS off 
stage, if you will, are substantial, which is another reason to 
keep the funding moving.
    The long-term issue here is for the goal--even though we 
are talking very much about operational issues at this point in 
the planning process, is still accuracy and a fair count. And 
the historical record suggests that the Bureau does well when 
it has its planning processes under control and when 
stakeholders, be they Members of Congress, State and local 
government, advocates for particular demographic groups, feel 
that the process is a good one and under control. If they do 
not, those stakeholders have alternative mechanisms to affect 
the count, including filing lawsuits, changing through 
legislation the plan, or challenges to participation. So the 
building of trust in the operational plan is very, very 
important, and it needs to be integrated into what we are 
seeing right now.
    Some surprises that we already saw in 2000: The duplicate 
enumeration issue is a very new one for the census, and I would 
suggest that even now at the operational stages that we be 
looking at that one in particular and say, OK, how are we going 
to solve the problems of duplicates as we move toward 2010?
    Group quarters is another one, which you have already heard 
about.
    Are we going to change the short term, in particular, the 
measurement of race and ethnicity, because the long form is no 
longer there. There is discussion of moving the ancestry 
question to the short form. What impact will that have?
    Will there be pressure to add information about citizenship 
status or alien status of the population to the short form 
census?
    In general, we need to sort of keep our eyes on the prize 
and continue to focus on evaluation of accuracy and fairness. 
That is always an open question. We can always do better. And I 
expect that we will be talking about that a great deal in the 
next 4 years.
    Thank you, and I will take questions.
    [The prepared statement of Ms. Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T7016.132
    
    [GRAPHIC] [TIFF OMITTED] T7016.133
    
    [GRAPHIC] [TIFF OMITTED] T7016.134
    
    [GRAPHIC] [TIFF OMITTED] T7016.135
    
    [GRAPHIC] [TIFF OMITTED] T7016.136
    
    [GRAPHIC] [TIFF OMITTED] T7016.137
    
    [GRAPHIC] [TIFF OMITTED] T7016.138
    
    [GRAPHIC] [TIFF OMITTED] T7016.139
    
    [GRAPHIC] [TIFF OMITTED] T7016.140
    
    [GRAPHIC] [TIFF OMITTED] T7016.141
    
    Ms. Foxx. Thank you very much.
    Dr. Anderson, the first question is for you. What is your 
opinion of the Bureau's efforts for the decennial census thus 
far? And you mentioned the issue of trust in your testimony. Do 
you think the Bureau is building trust for its operational 
plans with more testing prior to this decennial as compared to 
the last?
    Ms. Anderson. I think that they are--you know, as we are 
sitting here today, they are involved in--I mean, this hearing 
itself is involved in that process. I would like to see, again, 
a bit more, mostly because I am very sensitive to the fact that 
even, as I say, issues off stage, as you heard in the first 
session about SIPP, have a way of oozing back, if you will, 
into discussions of the decennial. So I would like to see a 
more systematic approach to those issues and how it would move 
forward.
    I think the planning process for the 1990's at this point 
is not as good a guide for what we are doing in this decade 
simply because the planning process of the 1990's was fraught 
by changes in direction as the political makeup of Congress and 
the Presidency shifted over that decade. The planning started 
with a Republican President and a Democratic Congress, moved to 
a Democratic President and a Republican Congress, a Republican 
President and a Democratic Congress and so forth.
    Right now we have what looks like a stable planning 
environment of moving forward. If that continues, it adds 
grounding to the plan.
    Personally, I would like to see a little more discussion of 
the evaluation and adjustment issues, but that is, again, 
certainly a political decision that can be made by the 
administration and Congress together.
    Ms. Foxx. Thank you.
    This question is for all of you, but I will start with Dr. 
Reamer and I will work backward that way. If the Bureau plans 
to start LUCA in June 2007, does that give local governments 
adequate time to confirm, correct, and add addresses before the 
decennial?
    Mr. Reamer. I am not an expert in the process of the step-
by-step process. My understanding from other people who are is 
that it certainly would be sufficient. But I think a lot has to 
happen between now and June 2007. What happened last time, my 
understanding is the National Academy hosted a panel on LUCA 
that the local governments were not adequately prepared for the 
LUCA process. A lot of them are small and resource-poor. So I 
think a lot of planning has to happen between now and mid/late 
2007 so that the local governments are aware of what their 
responsibilities are, what their opportunities are, and how 
they might work with governments at a higher level, a town 
working with a county, a county working with a regional 
planning council, so that the LUCA process--the burdens can be 
shared locally and participation could rise as a result. So I 
would like to see a lot of planning between now and 2007.
    Ms. Foxx. Dr. Rector.
    Mr. Rector. Well, like Dr. Reamer, I do not have immediate 
experience with the LUCA program, but I have heard concerns 
raised. I think that the 2007 date, what I can tell, is 
sufficient, but I would want to emphasize that it is important 
for the Census Bureau to do an effective job of communicating.
    Some of the stories that I have heard indicate that it has 
not always been clear what information the Census Bureau is 
actually requesting and how, in fact, the local communities are 
supposed to supply it to the Census Bureau. And so I think the 
communication is as important as timing.
    Now, with regard to timing, I do think that the 2007 data 
is important for these local communities, particularly those 
that need additional resources to actually take advantage of 
the LUCA program. They have to build that into their budget. 
And so it is not just a planning of them assigning resources, 
but actually making sure that there are sufficient funds 
available to cover the expenses required. And so I think that 
as much lead time as possible is helpful, but from what I can 
tell, the 2007 date is sufficient.
    Ms. Foxx. Thank you.
    Dr. Anderson, do you want to add?
    Ms. Anderson. A similar kind of response, which is that the 
communication of the program and one thing that can be done 
right now is find out how aware State and local governments are 
that this is coming.
    It is understandable that they were ill prepared before 
2000 because the law was only passed in, I think, 1994. So 
there should be a reservoir of experience that really needs to 
be built on, but it is, again, that kind of integration. This 
is a very hard task to do this national-to-local kind of 
communication and support. So anything you can do now to help 
it along, you know, will be wonderful as we move toward 2000.
    The places in the country that did take best advantage of 
LUCA were ones that knew it early and were sensitive to it.
    Ms. Foxx. Thank you.
    One more question. Do you all agree that the short form 
census will provide a more accurate census than a combined 
short form and long form decennial census? I will start with 
you, Dr. Rector.
    Mr. Rector. I think it certainly can, and given the plans 
that the Census Bureau has put in place, I think that it 
probably will, and the main reason for that is that they will 
be able to devote their resources on the short form. And so I 
think that, certainly given the programs that they have in 
place, should produce an accurate, complete census.
    Mr. Reamer. I agree and will add a couple things, I think. 
The ACS contributes in a number of ways to a more accurate 
decennial census. One is, as Dr. Rector says, that by taking 
the long form activity out of the short form process, you can 
have staff at the census focus on counting people and not 
worrying about other things.
    But, second, I think importantly is that the ACS itself has 
enabled the Census Bureau to put in the field a professional 
permanent staff so that for 2010 it can rely less on temporary 
workers. It will still have to rely on temporary workers, but 
it will have a professional staff in the field which will allow 
it to have a more accurate census.
    And then the third aspect is back to the MAF. One component 
of the American Community Survey is this CAUS program I 
mentioned, the Community Address Update program. So ACS staff 
throughout the decade are updating the MAF through this 
program, and that also will lead to a more accurate decennial 
census.
    So it is for those three reasons, I think, that we will 
have a more accurate census.
    Ms. Anderson. I think if the address listing and 
development work proceeds well, yes, you are going to do 
better. Again, as my historian says, there used to be only six 
questions on the census, and in some ways that is what we are 
going back to. I would also urge the Bureau to talk about that 
and to talk about what it is doing, because for most of the 
American population, of course, this is going to be a big 
surprise. I mean, they do not know about the ACS and, frankly, 
are not very interested.
    So, again, I also think that there is a programmatic and 
communications issue here that needs to be addressed.
    Ms. Foxx. Thank you. I am sorry. I do have one more 
question, and it is for Dr. Reamer. The Community Address 
Updating System is part of the ACS and, as you said, aims on an 
ongoing basis to use ACS staff to update address information.
    As of this date, 1,475 county TIGER maps have been updated 
to improve the Master Address File, and the contractor plans to 
deliver the remaining 1,758 county maps by 2008. Would you 
consider these two updating programs promising? And if you do, 
would you still recommend that Congress fund the Census 2000 
Experimental Update/Enumerate program for this upcoming 
decennial?
    Mr. Reamer. Yes, I do think the two efforts you mentioned 
will be very helpful, and I think the Update/Enumerate program 
is separate from those two and is, therefore, important in its 
own right. It was found in the 2000 census that, particularly 
in urban areas, small multi-unit buildings where there are not 
city-style addresses, where there is a single mail drop-off, it 
was difficult to enumerate because Census was not quite sure 
how many units were actually in the building. And what Update/
Enumerate does is actually targets neighborhoods in which those 
types of buildings are prominent and then sends people in the 
field to actually go to the building and go inside and count 
the doors.
    So I think that there is a need over and above CAUS and the 
TIGER updating for Update/Enumerate, and the 2000 experience 
seemed to be quite positive in that there were--in the target 
areas they added 14 percent--the number of addresses went up by 
14 percent because of people in the field. They also deleted 6 
percent of addresses, but the result was there were more units 
to count. So I would support funding for that?
    Ms. Foxx. Thank you. Do any of you have any brief closing 
remarks that you would like to make?
    [No response.]
    Ms. Foxx. Well, before we adjourn, I want to thank our 
distinguished panels of witnesses for their participation 
today. I appreciate your willingness to share your knowledge, 
experiences, and thoughts with us. I would also like to thank 
my colleagues for their participation today. Clearly, there is 
a lot involved in planning the 2010 census, and I am pleased to 
see that the Bureau is making every effort to ensure that the 
decennial census is the most successful yet.
    However, we are not out of the woods yet. Clearly, 
obstacles remain, but I am confident that by working together 
we can ensure that the 2010 census is the best ever.
    Again, I want to thank our witnesses for their time today. 
In the event that there may be additional questions we did not 
have time for today, the record shall remain open for 2 weeks 
for submitting questions and answers.
    Thank you all. We stand adjourned.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7016.142

[GRAPHIC] [TIFF OMITTED] T7016.143

[GRAPHIC] [TIFF OMITTED] T7016.144

[GRAPHIC] [TIFF OMITTED] T7016.145

[GRAPHIC] [TIFF OMITTED] T7016.146

[GRAPHIC] [TIFF OMITTED] T7016.147

[GRAPHIC] [TIFF OMITTED] T7016.148

[GRAPHIC] [TIFF OMITTED] T7016.149

[GRAPHIC] [TIFF OMITTED] T7016.150

[GRAPHIC] [TIFF OMITTED] T7016.151

[GRAPHIC] [TIFF OMITTED] T7016.152

                                 <all>

</pre></body></html>
